—


    Department of Health and Human Services
            OFFICE OF

       INSPECTOR GENERAL





       YOUTH ACCESS TO TOBACCO





               DECE~ER 1992   OEI-02-91-00880
                 EXECUTIVE                          S U M M A R Y

PURPOSE

To assess the level and characteristics of State and local enforcement of laws limiting
youth access to tobacco.

BACKGROUND

In 1990, the Office of Inspector General (OIG)inspection, '' Youth Access to
Cigarettes” found that 45 States had laws prohibiting the sale of cigarettes to minors.
However, States were not enforcing their laws. The report provided information for
the development of the Secretary’s “Model Sale of Tobacco Products to Minors
Control Act: A Model Law Recommended for Adoption by States or Localities to
Prevent the Sale of Tobacco Products to Minors.”

The Office of the Secretaxy has asked the Office of Inspector General (OIG) to
conduct a follow-up survey of the enforcement of State laws limiting youth access to
tobacco. In addition, the Congressional Subcommittee on Health and the
Environment has requested the OIG’S assistance in determining the extent to which
States have adopted and are enforcing youth access laws.

Recently, significant youth access legislation has been enacted. In July 1992, the
President signed the ADAMHA Reorganization Act, PL 102-321, which requires
States to ban the sale and distribution of tobacco products to anyone under the age of
18 by October 1, 1994. It also requires States to enforce their laws “in a manner that
can reasonably be expected to reduce the extent to which tobacco products are
available to underage youths.”

FINDINGS

Although most States prohiiit the sale of tobacco to minors, their failure to enforce
their laws would place them out of compliance w“th the new Federal law

      AU but three States ban the sale of tobacco to minom under the age of M
      Montana does not have a law prohibiting the sale of tobacco, New Mexico only
      prohibits the sale of smokeless tobacco and Georgia bans sales to minors under
      17 years of age rather than 18.

      Only two States are enforcing their kzws restricting the sale to minorx statenvik
      In Florida and Vermont, the liquor control agencies enforce their youth access
      laws statewide.

      A fw Sta@ are jiudkg local initiatives to reduce youth access. Four States
      (California, New Jersey, North Dakota and Utah) make funds available
            ‘,                                                            i





                                            i
       specifically to limit youth access or as part of broader tobacco education and
       control efforts.

       Low priority by police and lack of a desi@ated enforcer are seen as obstackx to
       enforcement. State respondents also frequently cite a lack of community
       awareness of youth access issues and a lack of commitment to enforcing these
       laws as serious problems.

Despite lack of State efforts, some localities are demonstrating enforcement is possible

These localities have developed different enforcement models. All, however, enforce
State or local laws, designate an agency responsible for enforcement, and choose a
method of enforcing that best meets their needs.


Vending machine restrictions are the most common initiative

In addition to their State laws prohibiting the sale of tobacco to minors, 21 States and
Washington D.C. have passed laws that restrict vending machines.

CONCLUSION


Our finding that most States are not enforcing their laws limiting youth access to

tobacco is a major concern given the requirements of PL 102-321. While we found

that most States have laws that prohibit the sale of tobacco to minors, they must move

quickly to enforce their laws to avoid the penalty.


State Options

The models that exist at the State and local levels present successful options for

enforcing youth access laws.
 This report describes steps that can be taken by States
that can reasonably be expected to reduce tobacco usage by youth. The states can:

       Designate an enforcer

       Ban vending machines

       Enact provision of the model law

       Educate communities and vendors

       Post signs
       Conduct stings


Federal Options

HHS has already taken steps to provide guidance to the States, however, as the

Department implements the new law, there may be other ways to provide leadership

and direction to the States. The Department can:


       Provide technical assistance to the States

       Monitor States activities and collect base line data

       Conduct research on effective enforcement models

       Develop criteria




                                            ii
                     TABLE                  OF            CONTENTS


EXE~ SUMMARY


                                                           . . . . . . . . . . . . . . . .
 .       . . . . .    1

INTJ?ODU~ON . . . . . . . . . . . . . . . . . . ........ .



mwDINGS

                                                               . .. ----- ---”””””
.                   . . . .   5

     State laws and enforcement . . . . . . . . . . . . -“-””-

                                                            . . . . ..- .-.”””” ““ . . . . . 8

     Local laws and enfor=menl . . . . . . . . . ..”.... ..

                                                                                                            . 11

      Vending macMerestictiom. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




 APPENDI~

                                                                                                            ..AI
      StateIXiwPrtiions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

       ADAMHAReorg-tion AaPLl~-321 . . . . . . . . . . . . . . . . . . . . . . . . ..B1
                                                                                                            ..C1
       Summmyof tie Model ha . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                         INTRODUCTION

PURPOSE

To assess the level and characteristics of State and local enforcement of laws limiting
youth access to tobacco.

BACKGROUND

The Office of the Secretary has asked the Office of Inspector General (OIG) to
conduct a follow-up survey to a 1990 OIG inspection of the enforcement of State laws
limiting youth access to tobacco. In addition, the Congressional Subcommittee on
Health and the Environment has requested the OIG’S assistance in determining the
extent to which States have adopted and are enforcing youth access laws.

Federal Initiatives

In 1990, the OIG surveyed States regarding their laws on the sale of cigarettes to
minors. The OIG inspection, “Youth Access to Cigarettes,” OEI-02-90-023 10, reported
that 45 States had laws prohibiting the sale of cigarettes to minors. However, states
were not enforcing their laws. The five States that could provide statistical
information documented a total of only 32 vendor violations in 1989. The few places
actively enforcing youth access to tobacco laws were mostly localities.

The inspection report provided information for the development of the Secretary’s
“Model Sale of Tobacco Products to Minors Control Act: A Model Law
Recommended for Adoption by States or Localities to Prevent the Sale of Tobacco
Products to Minors.” The model law called for: (1) licensing of vendors and
revocation of their license if they sell to minors, (2) a graduated schedule of penalties
so that vendors and employees are punished proportionate to their violation of the
law, (3) penalties for failing to post signs, (4) designating State or local, law or health
officials for enforcement, (5) civil in addition to criminal penalties to avoid overloading
the criminal justice system, (6) an age of legal purchase of at least 19, (7) banning or
greatly restricting access to vending machines, and (8) minimizing the burden of
compliance on retail outlets. (See Appendix C).

The model law was widely distributed. Each State governor received a copy, as did
State health department officials and anti-smoking groups. The law was also made
available to localities active in establishing and enforcing youth access laws, and to
experts in the youth smoking field. Further, the Secretary and the Surgeon General
frequently spoke about the model law.

The Centers for Disease Control’s Office on Smoking and Health is the focal point
within the Federal government for tobacco-related efforts. The office’s activities
include expanding the science base of tobacco control through implementation of

                                             1
epidemiologic studies, surveillance activities and publications such as the Surgeon
General’s Report on the Health Consequences of Smoking; coordinating national
media information and education campaigns to educate the public on the health
hazards of tobacco use; and assisting States to build their capacity to sustain broad-
based tobacco control programs.

Other Federal activity includes the National Cancer Institute’s (NCI) ongoing
Community Intervention Trial for Smoking Cessation (COMMIT) and its American
Stop Smoking Intervention Study for Cancer Prevention (ASSIST) programs.
COMMIT promotes community health concepts and technologies in 11 cities. The
ASSIST program incorporates COMMIT’s strategy and efforts and extends it
statewide. The ASSIST program, currently in 17 States, works to create
comprehensive programs to prevent and control tobacco use. The NCI collaborates
with the American Cancer Society (ACS), State and local health departments and
other related organizations.

Recently, significant youth access legislation has been enacted regarding youth access
to tobacco. In July 1992, the President signed the ADAMHA Reorganization Act, PL
102-321. This new law requires States to ban the sale and distribution of tobacco
products to everyone under the age of 18. It also requires States to enforce their law
“in a manner that can reasonably be expected to reduce the extent to which tobacco
products are available to underage youths.” The States must annually submit a report
to the Secretary describing their enforcement activities and annually conduct “random,
unannounced inspections,” commonly called stings or observed buys. States must
implement these provisions by Fiscal Year 1994, or risk a reduction in Federal funds
for mental health, alcohol and other drug abuse programs. (See Appendix B).



Tobacco Use Among Youth

Despite the States’ laws and national attention to the problem, tobacco use continues
to be widespread among youth. The Centers for Disease Control (CDC) estimates
that as many as 1 million American minors start to smoke each year, about 3,000 per
day. They also estimate that in 1990 teenagers bought 947 million packs of cigarettes
and 26 million cans of smokeless tobacco, which is chewing tobacco and snuff.
Further, approximately 75 percent of current smokers became addicted to tobacco by
age 18, generally before it was even legal for them to purchase tobacco products.
About half of the tobacco industry’s profits, $3.35 billion, derives from sales to
smokers who became addicted as children.1 Tobacco is also an initial drug preferred
by young people and is associated with other drug use.z

Other studies also suggest tobacco use is prevalent among youth. The 1990 school-
based Youth Risk Behavior Survey, conducted by the CDC, found that about 36
percent of all students nationally, in grades 9-12, reported using some form of tobacco



                                            2

during the 30 days preceding the survey. About 32 percent of students used cigarettes,
10 percent used smokeless tobacco, and some used both?

Another study indicates minors use smokeless tobacco extensively. Between 1970 and
1986, the use of snuff increased 15 times and the use of chewing tobacco four times
among males aged 17 to 19.4 An OIG inspection, “Youth Use of Smokeless Tobacco:
More Than a Pinch of Trouble/’ P-06-86-O058, published in 1986, concluded that
“addiction is a serious problem for many (smokeless tobacco) users...youth use of
smokeless tobacco is a growing national problem with serious current and future
health consequences.”5

Research shows that children can still easily buy tobacco products. A 1990 study by
Drug Free Youth, covering 93 communities in 38 States, found that “merchants readily
sell cigarettes to children in every city.”b This study, as well as others, indicates that
70 to 80 percent of merchants sell cigarettes to minors. These sale rates support
Secretary Sullivan’s statement that “access of minors to tobacco products is a major
problem in every State.” Based on current rates of smoking, he projects 5 million
American children alive today will die of a smoking-related disease.

A recent study by the American Cancer Society suggests that the public supports youth
access laws and their enforcement. The survey of 1,096 adults from four States found
that 86 percent believe there should be stronger laws to prevent tobacco sales to
                                                               7
minors; 90 percent believe there should be better enforcement.

METHODOLOGY

The inspection team interviewed the 51 National Network of State Tobacco
Prevention and Control contacts, a group of State health department officials
representing the 50 States and Washington D. C.. The team asked these respondents
to identify legislative and enforcement activity occurring at the State level. State
respondents also identified local officials enforcing youth access laws and any research
evaluating the effectiveness of enforcement.

Additionally, the team reviewed all State youth access laws. We requested the laws
from each State contact and analyzed them according to key components. (See
Appendix A).

The team also interviewed selected local officials to assess enforcement activity and to
obtain their opinions and experience about effective methods of enforcement. These
methods include stings and observed buys. For the purposes of this inspection, a sting
is an enforcement technique where underage youth are accompanied by an
enforcement agent and attempt to buy tobacco. An observed buy is a technique
whereby the enforcer checks or watches stores to see if they sell to minors. The team
selected localities based upon discussions with the State respondents, informal
discussion with experts in the tobacco field and a review of the Tobacco Access Law
News (a compilation of current legislative and enforcement activity). The local


                                             3
officials interviewed were also selected to represent different geographical locations
and enforcement approaches.




                                             4

                                 FINDINGS

ALTHOUGH MOST STATES PROHIBIT THE SALE OF TOBACCO TO
MINORS, THEIR FAILURE TO ENFORCE THEIR LAWS WOULD PLACE
THEM OUT OF COMPLIANCE WITH THE NEW FEDERAL LAW

AU but three Statzs ban the salk of tobacco to minors under the age of 18.

PL 102-321 requires States by October 1, 1994 to ban the sale and distribution of
tobacco products to minors under 18 years of age. All but three States have laws that
ban the sale of tobacco to minors. Montana is the only State without any law
prohibiting the sale of tobacco products. Georgia prohibits sales to minors under 17
years of age rather than 18 and New Mexico only prohibits the sale of smokeless
tobacco. (All other laws include both cigarettes and smokeless tobacco.) Three States
(Georgia, Louisiana and Virginia) however, only address the sale of tobacco products
and not distribution. Since 1990, youth access legislation has been a dynamic area of
change; 23 States have enacted new legislation.

States’ youth access laws vary. Alabama, Alaska, and Utah prohibit tobacco sales to
minors under 19. About two-thirds (36) of the States’ laws are criminal; 13 States’
laws are civil. California’s law may be enforced as either a criminal law or a civil law.
However, very few States (8) name a specific agency or organization to enforce the
law. Enforcement is often placed, almost by default, with local police departments.
All of the States with laws have fines as a penalty for violating the law, and 17 include
jail.

Many of the States (29) require that signs be present at the point of sale. Thirty-one
States require vendors of tobacco products to be licensed. Further, 23 States make it
illegal for minors to purchase tobacco products and 21 limit minors from possessing
tobacco products. Lastly, five States preempt localities from creating more stringent
local ordinances that relate to minors’ access to tobacco products. (See Appendix A
for a summary of State law provisions.)

Only two States are enfoming thak kzws restricting the saik to miruxr statewide.

State enforcement has not changed greatly since the previous OIG report, “Youth
Access to Cigarettes,” two years ago. Although States have laws, interviews with the
State Tobacco Prevention and Control contacts indicate that 48 States and Washington
D.C. do not enforce their laws statewide. Respondents in seven of these States report
enforcement is minimal and is conducted randomly at the local level; they cite only a
handful of vendor violations.

Florida and Vermont are the only States enforcing their laws statewide. Since 1990
Vermont is the only State that began enforcing youth access laws statewide. Both


                                             5

Florida and Vermont designate the state liquor control agency for this purpose.
However, Florida’s law is criminal and Vermont’s is civil.

In Flori@ the Department of Business Regulations enforces tobacco as well as
alcohol access laws. It conducts stings, observes buys, and responds to complaints
from the public of vendors selling to minors. Alcohol licensing fees in the past have
funded these activities. However, recent legislation, effective January 1993, requires
tobacco vendors to be licensed and their fees to be used to fund full-time tobacco
enforcement staff. State respondents report it is easier to convict vendors in Florida
by conducting a sting or a buy in response to a complaint because it establishes a
predisposition. Some judges consider random stings to be entrapment. Last year,
Florida reported 22 violations.

Vermont has only recently begun enforcing its youth access law. The Department of
Liquor Control enforces it statewide. Initially, the liquor agency sent signs, posters
and license applications to retailers. Following this campaign, a team of 14 liquor
control inspectors began making random unannounced visits twice a week to vendors.
No violations have yet been reported.

Two other States, Utah and South Dakota, enforce youth possession laws. In 1991,
Utah police and school monitors issued nearly 5,000 violations to minors, but only 30
to vendors. Similarly, in FY 1991 South Dakota police issued 58 violations to minors
but only 3 to vendors. PL 102-321 does not address youth possession.

A fm Stata are @ding ilxal Miativtx to redkce youth access.

While not actually enforcing their State access laws, four States make funds available
to localities interested in limiting youth access to tobacco. (Utah, California, North
Dakota and New Jersey). Three of them, Utah, California, and New Jersey,
encourage local initiatives to reduce youth access as part of broader tobacco education
and control efforts. North Dakota makes grants specifically for youth access. Further,
Utah and California make grants to all counties while the other two States fund only
select local sites.

       Utah’s Department of Health contracts with district health departments to
       conduct tobacco control and prevention activities. Districts choose from a
       number of different tobacco initiatives, ranging from youth access to worksite
       smoking policies. Every district addresses youth access in some way. All twelve
       districts have extensive vendor education campaigns; five districts educate law
       enforcement officers about the importance of the law. Law enforcement and/or
       health departments conduct observed buys in six districts. In one district, law
       enforcement officials have issued violations.

       California provides funding for local youth access initiatives. In 1988 California
       passed Proposition (Prop) 99, which increased the cigarette tax to 35 cents to
       fund anti-tobacco education and control programs. Prop 99 created tobacco


                                            6
      control programs throughout the State by funding county health departments,
      non profit organizations and schools. These programs include prevention
      education, cessation and policy initiatives. Many of the programs target youth
      among other groups. Prop 99 funds two projects specifically to reduce youth
      access, STAMP, Stop Tobacco Access to Minors Project and TRUST, Teens
      and Retailers United to Stop Tobacco. So far, TRUST has conducted
      merchant education, while STAMP has more actively enforced youth access. In
      conjunction with STAMP, three communities in Solano County, conduct regular
      stings and issue violations. STAMP also conducts merchant and community
      education campaigns and underage buy surveys in six counties. Three counties
      are currently exploring civil prosecution of vendors who have repeatedly sold to
      minors. A study by the University of San Diego suggests that the anti-smoking
      campaign has contributed to a 17 percent decline in smoking from 1987 to
      1990.

       New Jersey makes youth smoking prevention grants to localities. The State
       Health Department issued eight three-year grants to local health departments
       to encourage innovative education and youth cessation programs. Most of the
       communities receiving grants focus on educating vendors. Some local health
       departments visit vendors to inform them of the State law and to encourage
       them to voluntarily comply. However, one community also uses the grant to
       conduct observed buys and stings, and to enforce a local vending machine
       restriction. This community began enforcing the law following a highly
       publicized educational campaign. So far, health department officials have
       issued warnings to vendors who violate the law and are planning to issue
       citations shortly.

       North Dakota also encourages local youth access initiatives. Its Department of
       Health made youth access grants to seven cities. These grants encourage cities
       to educate and work with police and retailers, and to enact city ordinances
       limiting vending machines. The seven cities have achieved these goals to
       varying degrees. Some have successfully enacted local vending machine laws.
       A few have also conducted observed buys. So far, none have issued violations
       against vendors.

Low priority by police and lack of a daignated enfoNw are seen as obstacles to
erlfo?ulnenL

State respondents cite a number of problems in enforcing youth access laws. Most
State youth access laws are criminal and, therefore, only enforceable by police. State
respondents most frequently cite the low priority given by police to enforcing tobacco
sale laws. One respondents notes, “Law enforcement agencies are understaffed and
they have no desire to enforce anything not considered pressing.” Other respondents
cite the lack of an agency clearly identified as responsible for enforcement as a
problem. One respondent, typical of many, said, “There’s no one charged with
enforcement, it’s not coordinated in any way.”


                                           7
State respondents frequently cite a lack of community awareness of youth access and
smoking and a lack of commitment to enforcing the laws as serious problems. Several
believe that communities do not consider tobacco and youth access important issues.
“We need an evolution of attitudes - the public has a general attitude that alcohol
should not be sold to kids. They don’t feel the same way about cigarettes.” Several
respondents report that the police will not enforce the law if the community is not
supportive. One reports, “The community must motivate police to enforce youth
access...the police will respond to this pressure.” A few States also mention the lack of
concern by vendors as a problem.

State respondents report difficulties in convicting vendors. Several State respondents
believe State legislative language is vague and causes difficulties in enforcing the law.
Several States’ laws contain the phrase, “to knowingly sell tobacco products to minors.”
Respondents claim this makes it difficult to convict vendors because vendors claim
they did not know the person they sold to was underage. Further, judges are
sometimes reluctant to convict clerks for selling cigarettes to minors. They often
dismiss the cases, believing the vendor should be penalized, not the clerk. Also, some
judges dismiss violations issued as the result of random stings, considering them as
entrapment.

DESPITE LACK OF STATE EFFORTS, SOME Localities ARE
DEMONSTRATING ENFORCEMENT IS POSSIBLE

Based on our interviews with State respondents and experts and a literature review,
we identified localities that enforce laws prohibiting the sale of tobacco to minors
and/or laws prohibiting the possession of tobacco by minors. In several instances State
and Federal programs have encouraged localities, through grants and contracts, to
enforce youth access laws. In other instances, individuals interested in the issue and
grassroots groups have taken youth access on as their own cause. Some localities have
developed coalitions, working together with advocacy groups and local health
departments, to raise community awareness and win the support of local merchants
and police. As one local respondent comments “We needed to develop enforcement
at the local level... there is no enforcement at the State level and it is easier to enforce
at the local level.”

Regarding sale to minors laws, we identified 52 localities in 19 States that enforce
these laws and have developed varying models. All, however, enforce either State or
local laws, designate an agency responsible for enforcement, and choose a method of
enforcing that best meets their needs. Some have conducted research to evaluate the
effectiveness of their efforts. The following are examples of how local models differ
on these characteristics.

Z@e of kzw: Slightly more than half of the localities enforce State laws while the others
have enacted and are enforcing local laws. Several localities enforce the State law



                                             8

prohibiting the sale of tobacco to minors, but have enacted and enforce local
ordinances restricting vending machines.

Research suggests that the effect of enacting and implementing local ordinances
varies. Preliminary analyses of a study, which compared Marquette County, Michigan
to a county with no access law, indicates that passing a law does not significantly
change the perceived difficulty of buying tobacco, knowledge of the legal age or
smoking rates among youth.8 However, the previously mentioned study by Drug Free
Youthj conducted in 95 communities in 38 States, found that passage of an ordinance
has some effect on sales to minors. Stores in cities with ordinances sold to minors
about 48 percent of the time; stores in cities without ordinances sold to them about 82
percent of the time.g

Designated Enfonxm In 23 localities, local police enforce the law. In another 21
localities, local health officials enforce the law, and in the remaining localities licensing
or regulatory agencies are responsible for enforcement. A few localities have
coordinated efforts between the health department and police.

Opinions differ as to who should enforce youth access laws. State respondents most
frequently designate health departments. The majority of these respondents believe
that health departments are more concerned about tobacco than are police. One
comments, “It is not a public safety issue, but rather a health issue.” However, other
State respondents consider police the best enforcers. Most of these respondents
believe it is more appropriate for the police to enforce because as one says,
“enforcement is their business.” Still others believe licensing and other regulatory
agencies should be responsible; since these departments would issue the license to sell
tobacco, they would have authority to suspend it.

Method of Enfonxment: Localities enforce their laws differently. They enforce access
by using stings, observing buys, responding to complaints by the public or a
combination of these mechanisms. Frequently, localities conduct an initial sting to
document that minors can easily buy tobacco and use this information to attract the
media, educate retailers and raise community awareness. Twenty-one localities have
conducted stings for such educational purposes.

However, research appears to indicate that education alone is not enough. A study in
Santa Clara, CA reports that while a retailer education campaign reduced sales to
minors, one year later sales rebounded as a result of no enforcement.l”

Other localities enforce the law more extensively. Twenty-one localities conduct stings
or observed buys and penalize violators. They issue fines and/or suspend the vendor’s
license. Some have taken vendors or clerks to court. Several respondents in these
localities believe the only way to get compliance is to penalize vendors. Many
comment that if vendors are threatened with suspension of their license to sell tobacco
they will comply.



                                              9

The remaining localities conduct stings or buys, but do not issue violations. They
usually warn the vendors or clerks who sell tobacco illegally to minors. Some believe
initially warning vendors is only fair, but in the future plan to issue violations. Others
believe conducting observed buys without issuing violations sufficiently alerts vendors
and discourages them from selling to minors.

Research suggests that regular stings and violations can be effective in reducing youth
access and, in some cases, smoking. In Woodridge, Illinois, police conduct regular
stings and issue criminal violations to vendors. As a result, tobacco sales to minors
decreased from 70 percent to 5 percent. Experimentation and regular use of
cigarettes by minors reportedly decreased 50 percent.11 Another study conducted in
Everett, Washington suggests that a local ordinance enforced by the threat of fines
and license revocation reduced sales to minors and significantly reduced tobacco use
among girls.lz

Other studies indicate that enforcement decreases sales to minors significantly. In
Solano County, California, local police in two towns conduct stings twice a year and
issue citations. Researchers report that while originally 71 percent of vendors sold to
minors, only 24 percent sold after citations were issued.*3 Likewise, in Spokane
County, Washington local health departments conduct regular stings but do not issue
violations. Researchers here show that passing a local regulation and conducting
regular reviews decreased sales to about 27 percent.14

A study, conducted in Bollingbrook, Illinois, suggests frequent checks are necessary to
maintain compliance. In 1989 and 1990, when observed buys were conducted
quarterly, only 18 percent of stores were noncompliant. In 1991, buys were conducted
less frequently and 35 percent were noncompliant.15

Regarding youth possession laws, we identified a few localities that enforce youth
possession laws to reduce youth access. Some localities in North Dakota, Wyoming
and Minnesota issue violations for possession of tobacco by minors. In Gillete,
Wyoming, for example, police issue violations to minors to discourage youth from
using tobacco. Here, the police initially wanted to stop teens from loitering and they
decided to enforce the law against possession of tobacco by minors. They now work
successfully with schools to educate and reduce access and tobacco use among youth.
They believe possession laws limit peer pressure and send a consistent message to
youth to stop using tobacco.

Opinions differ as to whether possession should be made illegal. Some respondents
want minors to share the blame with vendors. They believe that possession and sale
laws send an appropriate message to both youth and vendors and will effectively
reduce youth smoking. However, other respondents believe that youth should not be
blamed and that vendors selling to minors is the issue.




                                             10

VENDING MACHINE RESTRICTIONS ARE THE MOST COMMON
INITIATIVE

Restricting tobacco vending machines is the most commonly observed way States and
localities limit youth access to tobacco. In addition to their State laws prohibiting the
sale of tobacco to minors, 21 States and Washington D.C. have passed laws that
restrict vending machines in some manner.

States have adopted different types of vending machine restrictions. Nine States and
Washington D.C. restrict the placement of vending machines to areas inaccessible to
minors, such as bars, liquor stores, work areas and private clubs. Five States require
that vending machines be supervised by the owner or an employee, or that the
machines be equipped with a locking device that can be released once the age of the
person using the machine is verified. Seven States combine these approaches by
restricting the placement and/or requiring supervision. In five of these States localities
have enacted even stricter local vending machine ordinances.

Over 140 localities in 19 States have enacted local ordinances limiting vending
machines. Nearly one-third of these localities have banned vending machines
altogether. The remaining localities have limited placement and/or required
supervision or locking of vending machines.

All State respondents interviewed agree that vending machines should be limited in
some way. One respondent expressed the beliefs of many when he said, “Ban all
vending machines, they are easy access (for minors).” Others believe that localities
should “put vending machines only in places that can be monitored or just get rid of
them altogether.”

Vending machine bans and placement restrictions require minimal enforcement. One
State respondent comments, “vending machines are the only part (of youth access
laws) that are enforceable.” Often, localities can enforce vending machine restrictions
by initially reviewing their placement and sending a follow-up notice to vendors not in
compliance. Another State respondent said, a “letter can usually get rid of vending
machines.”

Ordinances that call for supervision or locking devices are not as easily enforced.
Supervision of vending machines requires the same enforcement efforts as over the
counter sales and are therefore, generally not being enforced. Additionally, a recent
study in Minnesota concludes that “compliance with locking device laws is a problem.”
The study suggests that locking devices require additional enforcement to ensure
compliance and may not be as effective as vending machine bans. The author of the
study also notes the importance of restricting vending machines, stating “it is hard to
get over-the-counter merchants to take the age-of-sale laws seriously when they know
that cigarettes are available in vending machines freely.”lb




                                            11

Our finding that most States are not enforcing their laws limiting youth access to

tobacco is a major concern given the requirements of PL 102-321. While we found

that most States have laws that prohibit the sale of tobacco to minors, they must move

quickly to enforce their laws to avoid the potential federal penalty on their FY 1994

ADAMHA Block Grant funds.


State Options

The models that exist at the State and local level present different successful options

for enforcing youth access laws. Most often they include stings and vending machine

restrictions. Each State must develop and implement its own enforcement program to

reduce youth access and youth smoking. This report, however, describes several steps

that can be taken by the States that can reasonably be expected to reduce tobacco

usage by youth. The States can:


       -Designate an enforcer

       -Ban vending machines

       -Enact provisions of the model law

       -Educate communities and vendors

       -Post signs

       -Conduct stings


Federal Options

HHS has already taken steps to provide guidance to the States to assist them with

their efforts to reduce the extent to which tobacco products are available to underage

youth by developing and disseminating the Model law. However, as the Department

implements the new law requiring that States ban the sale and distribution of tobacco

products to anyone under the age of 18 and to enforce their laws, there maybe other

ways for the Department to provide leadership and direction to the States. The

Department can:


       -Provide technical assistance to the States

       -Monitor States activities

       -Conduct research on effective enforcement models

       -Develop criteria

       -Collect baseline data





                                             12

                                   ENDNOTES

1. DiFranza, Joseph R.,et al. 1990. “WhoProfitsF romTobaccoS alestoChildren?,”
Journal of the American Medical Association. V01.263, N014.
2. Dunnington, Joel. 1992. Tobacco Almanac: A Collection of Tobacco Facts.
Houston, Texas.

3. Centers for Disease Control. 1991, “Tobacco Use among High School Students-
United States 1990.” Morbiditv and Mortality Weekly Report. Vol. 40, No. 36.

4. U.S. Public Health Service. 1992. “Preventing Tobacco Use by Youth,” Prevention
RQPfXL
5. U.S. Department of Health and Human Services. 1986. “Youth Use of Smokeless
Tobacco.” Washington, D.C..

6. Doctors and Lawyers for a Drug-Free Youth. 1991. “Cigarettes Readily Sold to
Children in 89 U.S. Communities Tobacco Legislation Recommended.” Champaign,
Illinois.

7. Gambescia, Steve, et al. 1991. “Youth Access to Tobacco: Future Promise After
Decades of Neglect.” Future Choices. Vol. 3.
8. Trontell, Anne, et al. 1992. “Evaluation of a Local Law to Decrease Tobacco Use
by Minors.” Presentation at the 41st Annual Epidemic Intelligence Service
Conference, Centers for Disease Control.

9. Doctors and Lawyers for a Drug-Free Youth. 1992. “Cigarettes Readily Sold to
Children in 89 U.S. Communities, Tobacco Legislation Recommended.” Champaign,
Illinois.

10. Altman, David, et al. 1991. “Sustained Effects of an Educational Program to
Reduce Sales of Cigarettes to Minors,” American Journal of Public Health. Vol. 81,
No. 7.

11. Jason, Leonard A., et al. 1991. “Active Enforcement of Cigarette Control Laws
in the Prevention of Cigarette Sales to Minors,” Journal of the American Medical
Association. Vol. 266, No. 22.

12. Hinds, Ward, MD MPH. 1992. “Impact of a Local Ordinance Banning Tobacco
Sales to Minors.”

13. Feighery, Ellen, et al. 1991. “The Effects of Combining Education and
Enforcement to Reduce Tobacco Sales to Minors,” Journal of the American Medical
Association. Vol. 266, No. 22.


                                         13

14. Spokane County Health District. 1992.	 “Compliance Check Results From March
1992.” Spokane, Washington.

15. Doctors and Lawyers fora Drug-Free Youth. 1991. “CigarettesR eadilyS oldto
Children in 31 Illinois Communities Tobacco Legislation Recommended.” Champaign,
Illinois.

16. Forster, J., et al. 1992. “Locking Devices on Cigarette Vending Machines:
Evaluation of a City Ordinance,” American Journal of Public Health. Vol. 82, No. 9.




                                          14

                       APPENDIX                      A

                       STATE LAW PROVISIONS*

     —         —        � See Lemnd At End Of Matrix           — — — —
                                                           1




                   IT
s    A   Ps        P    L       s      VM        G P   F       J   R E P
T    G   oA        u    I       1      E A       REI   I
                                                           I
                                                               A   E N R
A    E   sL        R    c       G      N C   A N       N       I   v F E
T        sE        c    E       N      D H   DA I      E       L   o o E
E        E         H    N       s      IIUL            s           c R M
         s         A    s              N N   A T                   A c P
         s         s    E              G E T   I                   T E T
         I         E    s                s   E E                   I R  I
         o                                   DS                    o   o
         N
     — — —                                   I
                                             I         — —         N
                                                                   —   N
                                                                     — —


AK   19   Cv   Y        Y       Y      B               Y           Y
AL   19   CR            Y                              Y       Y   Y
AR   18   CR            Y       Y      B         Y     Y           Y
Az   18   CR   Y   Y    Y                              Y
CA   18   **                    Y                      Y                   Y
co   18   CR       Y            Y      B               Y
CT   18   Cv       Y    Y       Y      B         Y     Y
DC   18   CR            Y       Y      P         Y     Y       Y   Y
DE   18   CR   Y        Y                              Y               Y
FL   18   CR            Y       Y                      Y       Y       Y
GA   17   CR            Y       Y      s               Y           Y
HI   18   Cv   Y   Y            Y      P         Y     Y               Y
IA   18   CR   Y   Y    Y              L               Y           Y   Y   Y
ID   18   CR   Y   Y    Y              s         Y     Y       Y
IL   18   CR       Y            Y                Y     Y
IN   18   Cv   Y   Y            Y      P               Y
KS   18   CR       Y    Y                              Y       Y   Y
KY   18   CR                    Y                Y     Y
LA   18   CR       Y            Y                      Y
MA   18   CR            Y       Y                Y     Y       Y
MD   18   Cv                                           Y       Y



                                     A -1

— — —                — — — —                   —       — —
s    , A    s    P   P   L   s     V M   G P   F   J  R    E   P
T      G    A    o   u   I   I     E A   R E   I   A  E    N   R
A      E    L    s   R   c   G     N C   A N   N   I  v    F   E
T           E    s   c   E   N     D H   D A   E   L  o    o   E
E                E   H   N   s     II    U L   s      c    R   M
                 s   A   s         N N   A T          A    c   P
                 s   s   E         G E   TI           T    E   T
                 I   E               s   E E          I    R   “1
                 o                       D S          o        o
      — —        N       — — —                     — —N    —   N


ME     18   Cv       Y   Y   Y     s           Y
Ml     18   CR   Y   Y       Y                 Y           Y
MN     18   CR       Y   Y         B           Y   Y
MO     18   CR               Y           Y     Y
MS     18   CR                                 Y   Y
MT
NC     18   CR                                 Y   Y
ND     18   CR   Y       Y         s           Y   Y
NE     18   CR   Y       Y         P           Y
NH     18   Cv   Y   Y   Y   Y           Y     Y
NJ     18   CR           Y   Y                 Y
NM     18   CR       Y   Y   Y     P                           Y
Nv     18   Cv           Y                     Y       Y
NY     18   Cv           Y   Y     P     Y     Y       Y   Y
OH     18   CR                     B     Y     Y
OK     18   CR   Y       Y                     Y   Y
OR     18   Cv   Y   Y       Y     P           Y
PA     18   CR       Y   Y               Y     Y   Y
RI     18   CR   Y   Y   Y   Y           Y     Y       Y
Sc     18   CR                                 Y   Y
SD     18   CR   y   y                         Y
TN     18   CR   Y       Y   Y           Y     Y   Y   Y
TX     18   CR           Y   Y                 Y
UT     19   CR   y   Y   Y         P     Y     Y   Y
VA     18   Cv   Y   Y       Y                 Y



                                 A -2

  s       A        s        P       P       L         s      VM       G P      F       J           R     E       P
  T       G        A        o       u       I         I      E A      R E      I       A           E     N       R
  A       E        L        s       R       c         G      N C      A N      N       I           v     F       E
  T                E        s       c       E         N      D H      D A      E       L           o     0       E
  E                         E       H       N         s      I I      U L      s                   c     R       M
                            s       A       s                N N      A T                          A     c       P
                            s       s       E                G E      TI                           T     E       T
                            I       E                           s     E E                          1     R        I
                            o                                         D S                          o             0
                            N                                                                      N             N


  VT      18       Cv               Y       Y         Y       P       Y        Y                   Y     Y
  WA      18       CR                       Y                                  Y       Y           Y
  WI      18       Cv       Y               Y         Y       B       Y        Y                   Y     Y       Y
  w       18       CR       Y                                         Y         Y
  WY      18       CR       Y       Y                 Y       P                 Y                                Y




                                                     LEGEND
STATE: The name of the State in abbreviation.


AGE The age at which a person may purchase tobacco products,


SALE: Type of sale law. CR indicates the law is criminal and CV indicates the law is civil. ** indicates that the law
       may be enforced as a civil law or a criminal law.

POSSESSION: Possession by a minor. Y indicates that it is illegal for a minor to possess tobacco products.

PURCHASE Purchase by a minor. Y indicates that it is illegal for a minor to purchase tobacco products.

LICENSE: Licenses for vendors. Y indicates that vendors must have licenses to sell tobacco products.

SIGNS: Signs at the point of sale. Y indicates that a sign at the point of sale must be present.

VENDING MACHINES: Vending machine restrictions. S indicates that vending machines (vm) have to be supervised
      by an employee. P indicates that vm are restricted in placement (to areas where minors are not present). B
      indicates that vm have to be supervised and/or restricted in placement. L indicates that vm must have locking
      devices.

GRADUATED PENALTfES: Y indicates that there is a set graduated scale of penalties for each offense,

FINES: Y indicates that fines may be a penalty for noncompliance,

JAIL Y indicates that jail time may be penalty for noncompliance.


                                                           A -3
REVOCATION: Revocation of license. Y indicates that the revocation of a vendor’s license may be a penalty for
     noncompliance.

ENFORCER. Enforcer of law. Y indicates that the enforcer is stated in the law.

PREEMPTION: Preemption clause, Y indicates that there is a preemption clause not allowing localities to create
     stricter laws regarding youth access.




                                                          A -4

     APPENDIX             B

ADAMHA Reorganization Act PL 102-321





                B - 1

S. 1306





                                             AT THE SECOND SESSION
                         Begun and held at the cdy of Washington on F&iuY, the tfdrd day of Januury,
                                         one thouwxnd nina buired.cwui ninaey-two



                                                           909U
                            Ta amand t h e PubIjc Hemi& Setica ACC ta rcstmdnra tha AldDl, Dmg Ahuta,
                              and Msnti Heaith Admj&mtin and the autiori?iea of 8uch Adn&i.Ycrauon,
                              inciuding estabhhing sa~ce block grxnts to tdiana tha dativeay ot aewxxs
                              ~~~ding miananca abuse ‘and mend haaI& and for othar p~
                                Be it enasied by the Senate and Hause of Regvwentatives of
                            the United State8 ofAmg& in Congress assemb~
                            SECTION 1. 8HORT-~ Tw OF CO~
                              (a) SHORT TITLE.-’’IMs Act may be cited aa tbe ‘A13&fI%4
                            Reorganization AcY.
                                                              �    4 4

                              “Subptwt IMWck Grads for I%wention and
                                     Trestment of Suh4tance Abuse
                          %3EC. 1221. RYJ~ QRAN1’9 TO !3t!ATE%
                             “(a) IN GENExAL.-Z13r the          e deecribed in subsection (b),
                          the Secretary, a-through                 for Substance Abuse ‘Treat.
                          me@, M maka an aLlam3ut each fkcai
               ar for each Stata
                          lrlanamount de~inatica Wiz Bedim 1933. The

                          Secretary shaU make a        t to the State af the allotment made
                          for the Skate *the        year if the State euhmitii to theI Secretary
                          an q’plication in accordmcs with section 1932


                           -EC. lim. STAIZ LAW RSX3ARDSN(3 SAM OF TOBACCO                PROI)UCX’9
                                       ‘m xNDIvmlJm umxBMllI OF la.
                             la)   ~v.pcxNmuL-Suhiect
                                         lAw--­
                                                                ta pangrqh (2), for tial        year
                                1994 and &&equeat 6cA yeara, the Socrttary may make
                                8 @MIt wader 8CXtiOlL 1 9 2 1 OXdY if the Stata iIlVOk3d kin
                                in affact � law pnrvi~ that it h@awful f(lr ULy mam2fhc-
                                tumr, n&dOr, or dilxnbutGr of tflhacfl)   tmatodlor
                                dhtrikti my mxh pnxkt
                                                  -     tQ any   indM   P
                                                                        d undar tha age
                                d 38.
                                   ‘(2) n-mm APPK~ FOB CX8’IXN                      SrATZ9.-ba the
                                use of a SMa    whose kgialattxa does mt canvane a m
                                8e8aioa imfia4yea,r 1993, and inthacaaaof8Stataw       e
                                                                                     ‘%s
                                legiidatura +IS not cnnvcne a r8gdar -inkd year
                                I*} *~- ~-~                                       m aa 8 Mndition
                                ofamc8ipt ofngnultll@rMct@                      lchaIla.ppiy only
                                ibYklllyaar lg95dgu&qua@tix




           . .. ---- .
   “(b) ENFoRiEMENT.­
       “0) IN QBxERAL-For the fht applicable kai year and
     fix dwequent W yeara, a funding agresment fm a grant
     under Section 1921 ie that the Stab involved will enforce the
     law d~dxd in suixmction (a) in a xnanner that can reasonably
     be qected ta reduce the axt8nt to which tobacca          products
     aza:;p to individuaia under the age of 18.
              CrnmIE9 AND REmms REGARDING mm w2wErrr.-For
     the first appihble fiacai year and for aubeequmt H P-,
     a tiding agreement fbr a grant   under w&an 1921 ie that
     the state invobmd wi31—
            “(A) annually cenduct random, unamxm.ncad ine      “ OnB
                                                          P
          to ensure compliance with the bw deaczibed in au section
          (a); end
           “(B)      e.nmdy autxnit to the Secretary a report
         describing—
                ‘(i] the activities carried out by the State to enforce
             such law duriig the fiecai year preceding the !lacal
             year for which the State b seeking the gran~
               “(ii) the extent of success the State ha achieved
             in reducing the availability of tabacco produti to
             individuals under the age of 1S; and
               “[iii) the a&alq@e to be utilized by the State far
             enforcing such law dkg the fiscai year for which
            thegrantiaeou ~
  ‘[c} No~comum ~ OF TXrZ—13efore
                           P             making a grant under
section 1921 to a State for the iiret appiicalh fical year or any
subsequent fiecai year, the Secretary ehail make a debmnination
of whether the State has mhtained compl,iarlcs with subsections
(a) ~d (b). ~ after notice to the Stata and an opportunity for
a herein , the Secre@y determines that the SWa ie not in com@­
ance Wi & euch subsectio~, the Secretary ehalI reduca the amount
of the allotment under such section for ths Stats fbr the fiecal
year invoived by an amount equal tu­
      71) in the caae of the first applicable fiaeal year, 10 percent
    of the amount determined under section 1993 for the State
    for the fiscal yeaq
      “(2) in the case of the tit kal year following sUch
    applicable tical year, zo permnt of b amount determined
    under mctiau x933 for the Skte fm the fiscal aq
      %3) in the caae of the second euch fia 2year, 30 percent
    of the amount detied under sedan 1993 fbr the State
    for the 6s4 yeaq and
       74) in the case of the third such ikal year or any mbaequemt
    fiscal year, 40 p~t of the amount de@mined under section
    1933 fm the Stab for the Ikal year.
  “ ( d ) ~~QN.—FOr purpos~ of U d- & brm %t
applicable 5A pxkr’ meana­
        “(I) ficai year 1!395, in the case of any Stab deaerhed
     in aubeecfioxl (aK2); and
        ’72) 584 year 1994, in the case of 8ny other State.




                                                                           .-
                                                                          ““--
                             APPENDIX                    C

                               Summam of the Model Law
The model law has several key features. They are summarized below.

o Create a licensing system, similar to that which is used to control the sale of
alcoholic beverages, under which a store may sell tobacco to adults only if it avoids
making sales to minors. Signs stating that sales to minors are illegal would be
required at all points of sale.

o Set forth a graduated schedule of penalties--monetary fines and license suspensions­
-for illegal sales so that owners and employees face punishment proportionate to their
violation of the law. Penalties would be fixed and credible.

o Provide separate penalties for failure to post a sign, and higher penalties for sales
without a license.

o Place primary responsibility for investigation and enforcement in a designated State
agency, and exclusive authority for license suspension and revocation in that agency.
However, allow local law enforcement and public health officials to investigate
compliance and present evidence to the State agency or file complaints in local courts.

o Rely primarily on State-administered civil penalties to avoid the time delays and
costs of the court system, but allow use of local courts to assess fines, similar to traffic
enforcement. This would provide flexibility to both State and local authorities to
target enforcement resources. (An illegal sale could not result in two fines, but a local
conviction would be reported to the State and count towards possible license
suspension).

o Set the age of legal purchase at 19. This is higher than under many existing State
tobacco statutes, but lower than the age for alcohol. States may consider age 21.

0 Ban the use of vending machines to dispense cigarettes, parallel to alcohol practice
and reflecting the difficulty of preventing illegal sales from these machines. (This is
another area where States should examine options carefully; allowing sales in places
not legally open to minors or use of store-controlled electronic enabling devices may
be acceptable alternatives. States could also consider phasing in the ban to minimize
disruption).

o Contain a number of features to minimize burdens on retail outlets: requiring
identification only for those who are not clearly above the ate of 19, allowing a driver’s
license as proof of age; setting a nominal penalty for the first violation; disregarding
one accidental violation if effective controls are in place; having the State provide
required signs; and setting license fees lower for outlets with small sales volume.

                                           c-1
